Case l:19-cv-01330-LMB-TCB Document 11 Filed 03/12/20 Page 1 of 1 PagelD# 54

App

t''

A i

(i

FILED: March 12, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2251
(1:19-cv-01330-LMB-TCB)

MAKEDA HAILE
Plaintiff - Appellant
v.
KAISER PERMANENTE TYSONS CORNER
Defendant - Appellee

JUDGMENT

In accordance with the decision of this court, this appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

i

'Case l:19-cv-01330-LMB-TCB Document 10 Filed 03/12/20 Page 1 of 2 PagelD# 52

Apf "a 2"
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2251
MAKEDA HAILE,
Plaintiff - Appellant,
v.
KAISER PERMANENTE TYSONS CORNER,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. LeonieM. Brinkema, District Judge. (l:19-cv-01330-LMB-TCB)
Submitted: March 10, 2020

Decided: March 12, 2020

Before NIEMEYER and AGEE, Circuit Judges, and SHEDD, Senior Circuit Judge.
Dismissed by unpublished per curiam opinion.
Makeda Haile, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Case l:19-cv-01330-LMB-TCB Document 10 Filed 03/12/20 Page 2 of 2 PagelD# 53
11

PER CURIAM:
Makeda Haile seeks to appeal the district court’s order dismissing without prejudice
her civil complaint alleging employment discrimination, in violation of Title VII of the
Civil Rights Act of 1964, as amended, 42 U.S.C. §§ 2000e to 2000e-17 (2018). This court
may exercise jurisdiction only over final orders, 28 U.S.C. § 1291 (2018), and certain
interlocutory and collateral orders, 28 U.S.C. § 1292 (2018); Fed. R. Civ. P. 54(b); Cohen
v. Beneficial Indus. Loan Corp., 337 U.S. 541, 545-46 (1949). “An order dismissing a
complaint without prejudice is not an appealable final order under § 1291 if ‘the plaintiff
could save [the] action by merely amending [the] complaint.”’ Goode v. Cent. Va. Legal
AidSoc’y, Inc., 807 F.3d 619, 623 (4th Cir. 2015) (quoting Domino Sugar Corp. v. Sugar
Workers Local Union 392, 10 F.3d 1064, 1066-67 (4th Cir. 1993)). Because the district
court dismissed Haile’s complaint without prejudice to her filing an amended complaint,
we conclude that the court’s order is neither a final order nor an appealable interlocutory
or collateral order.
Accordingly, we dismiss the appeal for lack of jurisdiction. We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
DISMISSED

2

Case l:19-cv-01330-LMB-TCB Document 5 Filed 10/23/19 Page 1 of 5 PagelD# 42
?f

#rf>P <S I

(i

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF VIRGINIA
Alexandria Division
MAKEDA HAILE,
Plaintiff,
v.
KAISER PERMANENTE TYSONS CORNER,
Defendant.

)
)
)
)
)
)
)
)
)

l:19-cv-1330 (LMB/TCB)

ORDER
Plaintiff Makeda Haile (“plaintiff’) has filed a pro se complaint against her employer,
Kaiser Permanente Tysons Comer (“defendant”). The complaint alleges that defendant
“[discriminated [against], [h]arassed and [terrorized” plaintiff based on her religion. Compl.
[Dkt. No. 1] at 4. Specifically, the complaint alleges a wide-ranging variety of issues in the
workplace, including, but not limited to, that her colleagues made fun of her for reasons
including “[her] bad breath,” id. at 5; a colleague named Abdul “made the hand gesture walking
toward [her] the same way ISIS does before they kill people,” id. at 6, and “said he will cut one
of [her] leg[s], [and] one of [her] arm[s],” id at 7; a friend of Abdul’s “show[ed] [her] with his
hand as if he [was] cutting his neck,” id. at 7; “upper management did not do anything to prevent
further workplace violence” “[e]ven though Abdul... threatened [her] life three different times,”
id. at 7; another colleague “asked [her] to have a child from [the colleague’s] husband,” id. at 5;
a lab director “flirt[ed]” with her even though “[f]rom [her] body language he could tell that [she
was] not interested anymore,” id. at 6; a supervisor failed to accommodate her need to pick up
her children after school, id.; her colleagues “talked to [her] about a slow death,” id.; a colleague
made a mistake at work for which she was blamed, id at 6-7; she reported issues with the

s-f

Case 1:19-CV-01330-LMB-TCB Document 5 Filed 10/23/19 Page 2 of 5 PagelD# 43

processing of defendant’s blood bank that were ignored, id at 7; she worked through some of her
breaks without pay, id. at 8; her supervisor “purposefully overload[ed] [her] with work and [gave
her instructions that were] missing critical information, so that [she] will make a mistake and
then be penalized,” id. at 8; and her supervisor criticized her work unfairly and did not permit her
to ask colleagues to sign a “character letter” supporting her, even though the supervisor allowed
Abdul to do so, id. Plaintiff claims that these issues have caused her emotional and physical
distress.
The complaint also references issues occurring outside the workplace, although it is not
clear how these are connected to defendant. For example, the complaint alleges that “there was a
lurker spotted two different times” outside of her home, that “[p]eople [have] followed] [her]
children and [her] for years,” and that “[a]fter [she] started working for Kaiser Permanente [she]
starred] receiving crazy voicemails,” which led her to call the police, id. at 5. The complaint
alleges that plaintiff later obtained a “preliminary protective order for [her] children” but “the
next judge den[ied] it.” Id. at 7.
An email attached to the complaint suggests that plaintiffs supervisor told her on
September 3, 2019 that she “still ha[d] not completed [certain required] training” and that if it
was not completed by September 17, plaintiff would be put on unpaid leave. Id. at 22. The
documents filed do not make clear whether plaintiff is still employed by defendant.
The complaint states that on approximately September 24,2019; plaintiff filed a charge
with the Equal Employment Opportunity Commission (“EEOC”). Although plaintiff claims to
have received a right-to-sue letter from the EEOC on October 3,2019, she has not attached a
copy of that letter. The complaint seeks $300,000 in compensatory and punitive damages and
asks the Court “to order Kaiser Permanente Tysons Comer to have a good policy placed that has

2

6

_r<

6 "-5
Case l:19-cv-01330-LMB-TCB Document 5 Filed 10/23/19 Page 3 of 5 PagelD# 44

Aff B

3 n

zero tolerance to Terrorization, Discrimination and Harassment.” Id. at 10. Plaintiff has also filed
a motion for leave to proceed in forma pauperis.
Although a pro se complaint “must be held to less stringent standards than formal
pleadings drafted by lawyers,” Erickson v. Pardus, 551 U.S. 89, 94 (2007) (internal quotation
marks omitted), when a plaintiff seeks to proceed in forma pauperis. 28 U.S.C.
§ 1915(e)(2)(B)(ii) requires the court to dismiss a complaint that fails to state a basis on which
relief may be granted at any time that this failure becomes apparent. Michau v. Charleston
County, S.C.. 434 F.3d 725, 728 (4th Cir. 2006). Accordingly, “the court may monitor the action
to the end of avoiding or minimizing abusive prosecutions of civil suits in forma pauperis by
indigent litigants who seek to exploit or abuse the generous purposes of the enabling statute.”
Hawkins v. Elliott, 385 F. Supp. 354, 358-57 (D.S.C. 1974). When evaluating a complaint under
§ 1915, “a court is not bound, as it usually is when making a determination based solely on the
pleadings, to accept without question the truth of the plaintiffs allegations.” Denton v.
Hernandez, 504 U.S. 25, 32 (1992). Rather, to pass muster under § 1915, a pro se complaint
“must present more than naked allegations.” Adams v. Rice. 40 F.3d 72, 74 (4th Cir. 1994).
Plaintiff has failed to state a claim on which relief can be granted. Although she claims to
have faced discrimination based on her religion, her complaint fails to describe any facts
suggesting that the mistreatment she alleges at work is in any way linked to her religion. Title
VII prohibits discrimination “because of... religion” in “discharge” decisions and “terms” or
“conditions” of employment. 42 U.S.C, § 2000e-2. It is not clear from plaintiffs complaint that
she has been discharged, and even if she has been, she has presented no facts linking any such
discharge with her religion. To the extent plaintiff attempts to claim a hostile work environment
based on her religion, this claim fails, too. “[HJostile work environments are not perse forbidden

3

Case l:19-cv-01330-LMB-TCB Document 5 Filed 10/23/19 Page 4 of 5 PagelD# 45

A?e

''

under Title VII... rather, Title VII... only prohibits] hostile work environments based on a
statutorily protected characteristic (e.g„ ... religion...)

Accordingly, no matter how

difficult or stressful supervisors or coworkers make one's job, the conditions are only actionable
under Title VII... if there is ‘some independent evidence of... animosity’ towards a protected
characteristic or activity.” Tomasello v. Fairfax Ctv.. No. l:15-cv-95,2016 WL 165708, at *17
(E.D. Va. Jan. 13,2016) (citing Gilliam v. S.C. Dep’t of Juvenile Justice. 474 F.3d 134,143 (4th
Cir. 2007)). In other words, the “conduct ofjerks, bullies, and persecutors is simply not
actionable under Title VII unless they are acting because of the victim’s” religion. Wasek v.
Arrow Energy Servs.. Inc.. 682 F.3d 463,467 (6th Cir. 2012).
The only factual allegations that contain even an arguable, tenuous link to religion are
plaintiff s claims that (1) she is a practicing Christian, Compl. at 5; (2) in 2016, she voluntarily
told an orientation leader that she reads the Bible every day, and the leader asked foliow-up
questions and stated “you made all of us buy a bible,” id.; and (3) in 2019, Kaiser management
neglected to order food for their workers because it was Ramadan, id at 7. None of these
allegations is sufficient to establish discrimination or a hostile work environment based on
religion under Title VII. Even if the Court could theoretically cobble together an argument that
the alleged incidents amount to religious discrimination, courts are not “empowered to transform
[themselves] into ... advocate[s] on Plaintiffs behalf.” Campbell v. StoneMor Partners. LP. No.
3:17-cv-407, 2018 WL 3451390, at *4 (E.D. Va. July 17,2018), affd. 752 F. App’x 166 (4th
Cir. 2019). For these reasons, it is hereby

4

2'^

Case l:19-cv-01330-LMB-TCB Document 5 Filed 10/23/19 Page 5 of 5 PagelD# 46

Affi(8 S' ff
ORDERED that plaintiffs Complaint [Dkt. No. 1] be and is DISMISSED WITHOUT
PREJUDICE;1 and it is further
ORDERED that plaintiff s Motion for Leave to Proceed In Forma Pauperis [Dkt. No. 2]
be and is DENIED as moot.
To appeal this decision, plaintiff must file a written notice of appeal with the Clerk of the
Court within thirty (30) days of the date of entry of this Order. A notice of appeal is a short
statement indicating a desire to appeal, including the date of the order plaintiff wants to appeal.
Plaintiff need not explain the grounds for appeal until so directed by the court of appeals. Failure
to file a timely notice of appeal waives plaintiffs right to appeal this decision.
The Clerk is directed to forward copies of this Order to plaintiff, pro se. and close this
civil action.
Entered this Jl3*day of October, 2019 ,
Alexandria, Virginia

Is/
Leonie M. Brinkema
United States District Judge

If plaintiff should choose to file an amended complaint she needs to attach a copy of her EEOC
complaint and the EEOC’s right-to-sue letter, and include only facts relevant to her claim.
5

